U.S. Department of                       The Inspector General    Office of Inspector General
Transportation                                                    Washington, D.C. 20590
Office of the Secretary
of Transportation
                                                                    February 27, 2007

            Statement of DOT Inspector General Calvin L. Scovel III
                                      on
  Review of Airline Customer Service Commitments for Extended Ground Delays


As a result of recent incidents in which passengers were stranded aboard aircraft for
protracted periods of time, the Secretary has asked us to review airline customer
service commitments covering extended ground delays.

Accordingly, we will examine: (1) the airlines’ customer service commitments,
contracts of carriage, and policies addressing extended ground delays aboard
aircraft and (2) particular situations involving American and JetBlue, taking into
account any specific commitment these carriers made concerning policies and
practices for meeting customers’ essential needs during long on-board delays. In
addition, we will make recommendations if we find steps that airlines, airports, or
the Department might undertake to prevent a recurrence of such events. We also
will identify any industry “best practices” employed for handling these types of
situations.

In the past seven years, we have performed a number of customer service-related
audits and reviews and issued our most recent update in November, 2006. We will
assemble a team to respond to the Secretary’s request and intend to report as
expeditiously as possible in the months ahead. Our goal is to provide the Secretary,
Congress, and the traveling public a thorough and objective assessment so that
corrective actions can be taken by the appropriate parties to prevent such situations
from happening again.

The Office of the Secretary’s Aviation Consumer Protection Division has the
responsibility for receiving individual complaints regarding aviation consumer
issues and verifying compliance with DOT’s aviation consumer protection
requirements.

Their website is located at: http://airconsumer.ost.dot.gov/problems.htm, and
provides more information on how to register a complaint by phone (202.366.2220)
or via email at: airconsumer@dot.gov.

                                        ###
         Prior DOT OIG Work Products on Airline Customer Service


• November 21, 2006. Follow-up Review: Performance of U.S. Airlines in
  Implementing Selected Provisions of the Airline Customer Service
  Commitment. (http://www.oig.dot.gov/item.jsp?id=1932)

   We issued a final report on our Follow-up Review: Performance of U.S. Airlines
   in Implementing Selected Provisions of the Airline Customer Service
   Commitment. This audit was requested by the Chairman of the House
   Transportation and Infrastructure Aviation Subcommittee. We found that the
   airlines need to: (1) resume efforts to self audit their customer service plans; (2)
   emphasize to their customer service employees the importance of providing
   timely and adequate flight information; (3) focus on the training for personnel
   who assist passengers with disabilities; (4) provide straightforward,
   comprehensive reporting on frequent flyer award redemptions; and (5) improve
   the handling of bumped passengers.

   We also found that the Department's Office of Aviation Enforcement and
   Proceedings (OAEP), which enforces air travel consumer protection rules, must
   improve its oversight of air traveler consumer protection requirements.

   We made a series of recommendations to the Department to strengthen its
   oversight and enforcement of air traveler consumer protection rules. One such
   recommendation was that DOT develop strategies to more effectively monitor
   air carrier compliance with Federal requirements governing air travel consumer
   protection rules and to verify air carrier compliance with the terms and
   conditions of consent orders.


• February 28, 2005. Review of December 2004 Holiday Air Travel Disruptions
  (http://www.oig.dot.gov/item.jsp?id=1510)

   Pursuant to Secretary Mineta’s request of December 27, 2004, we issued a
   report on our review of the travel disruptions experienced over the December
   holiday travel period by Comair and US Airways. In conducting this review, we
   worked closely with the Department’s Office of Aviation and International
   Affairs and Office of General Counsel. We found that Comair’s problems were
   a function of severe weather at Cincinnati and failure of the computer system it
   used to schedule its crews. In Cincinnati, Comair’s flight cancellations and
   delays ultimately affected over 260,000 passenger itineraries. At the time of our
   review, Comair temporarily addressed its computer problems with an interim fix

                                                                                     2
  that doubled capacity until a new crew scheduling system could be installed in
  the summer of 2005.

  Additionally, we found that US Airways’ problems centered on staffing
  shortfalls going into the holiday travel period in two critical functions—fleet
  service employees and flight attendants, particularly at its Philadelphia hub.
  Plans to offset the staffing shortages through overtime and increasing the
  required number of hours worked by flight attendants did not work. US Airways
  canceled 405 flights during the holiday travel period, affecting more than 46,000
  passengers and delayed over 3,900 flights affecting over 518,000 passengers.

  Subsequently, US Airways made an intensive effort to increase staffing at its
  Philadelphia baggage operations and increased the monthly flying obligations of
  its flight attendants by 5 to 10 hours.


• June 20, 2001. Status Report on                  Airline   Customer     Service.
  (http://www.oig.dot.gov/item.jsp?id=508)

  We presented testimony before the House Transportation and Infrastructure
  Aviation Subcommittee regarding progress made by 14 ATA airlines in
  improving customer service since our 2001 report. We reported that most
  airlines had:     (1) incorporated the original Airline Customer Service
  Commitment into their contracts of carriage, (2) established performance
  measurement systems, and (3) petitioned DOT to revise regulations for reporting
  mishandled baggage and compensating passengers involuntarily bumped from a
  flight. The ATA airlines also formed a task force to develop plans for
  accommodating passengers delayed overnight, ensuring airport display monitors
  are accurate, and providing for passengers’ needs during long on-board delays.


• February 12, 2001. Final Report on Airline Customer Service Commitment.
  (http://www.oig.dot.gov/item.jsp?id=12)

  We issued our “Final Report on Airline Customer Service Commitment.”
  Overall, we found that the airlines were making progress toward meeting the
  Commitment and that the Commitment had been beneficial to air travelers on a
  number of important fronts. Notwithstanding progress by the ATA airlines
  toward meeting the Commitment, we also found significant shortfalls in reliable
  and timely communication with passengers by the ATA airlines about flight
  delays and cancellations. Further, we found the Commitment did not directly
  address the most deep-seated cause of customer dissatisfaction—flight delays
  and cancellations, and what the Airlines plan to do about them in the areas under
                                                                                  3
  their control in the immediate term. As required by law, the report included a
  section on recommendations that Congress, the Department, and air carriers may
  wish to consider.


• June 27, 2000. Interim Report on Airline Customer Service Commitment.
  (http://www.oig.dot.gov/item.jsp?id=48)

  We issued an Interim Report on Airline Customer Service Commitment which
  provided the preliminary results and observations on (1) the status of
  implementing the commitment and the Airlines’ Plans to carry out the
  Commitment, and (2) whether the Airlines modified their contract of carriage to
  reflect all items in their Plans.




                                                                                4
